CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing opposition, described below as follows:
No. 20-1383
IN THE SUPREME COURT OF THE UNITED STATES,
ARTHUR DIAMOND, ET AL., Petitioners
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION, ET AL., Respondents
COMMONWEALTH’S OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic service to:
Brian Kirk Kelsey, Esquire
Liberty Justice Center
208 S. LaSalle St.
Ste. 1690
Chicago, IL 60604
Counsel for Petitioners

Jacob Raffel Karabell, Esquire
Bredhoff & Kaiser, P.L.L.C.
805 15th Street, N.W. Suite 1000
Washington, DC 20005
Counsel for PSEA Respondents
s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov

Dated: May 10, 2021

